  U.S. Department of the Interior
  Office of Inspector General




             AUDIT REPORT


COMPLIANCE WITH LOCAL FINANCIAL PLANS
  FOR THE 1997/1998 SCHOOL YEAR AT
   SELECTED SCHOOLS OPERATED BY
    THE BUREAU OF INDIAN AFFAIRS

               REPORT NO. 01-I-235
                  MARCH 2001
U.S. Department of the Interior                                 Office of Inspector General


                              EXECUTIVE SUMMARY

                     Compliance With Local Financial Plans for the
                      1997/1998 School Year at Selected Schools
                       Operated by the Bureau of Indian Affairs
                                 Report No. 01-I-235
                                     March 2001


For the 1997/1998 school year (ending June 30, 1998), the Bureau of Indian Affairs (BIA)
provided Indian School Equalization Program (ISEP) funding of approximately $138 million
to the 79 BIA-operated elementary and secondary education facilities serving about
22,900 students. The schools also receive separate BIA funding for student transportation and
additional funds from the U.S. Departments of Education and Agriculture. The schools are
required to expend allotted funds on the basis of local financial plans prepared by the local
school supervisor and ratified by the local school board.

The objective of the audit was to determine whether four of the schools spent their allocated
funds in accordance with their local financial plans for the 1997/1998 school year. The
schools were located in the State of New Mexico, served a total of 1,670 students, and
received funding totaling about $13.7 million for the school year.

Overall, we found that the four schools did not fully comply with the requirements for
preparing and executing local financial plans. Specifically, the plans did not include all funds
available to the schools and/or did not contain budgets for individual programs; expenditures
were not adequately monitored and funds were not always spent in accordance with the
approved plans; and the plans were not revised and school board officials were not informed
when expenditures varied significantly from the plans. As a result, BIA and school board
officials lacked assurance that funds were spent in a prudent manner.

We found that one school overspent its ISEP and transportation funding by about $115,000.
To address this situation, the school used Department of Education funds of $73,500 that had
been programmed for the following school year (thus reducing the funds available for that
year) and inappropriately transferred recorded expenditures of $40,400 to the account of a
different school. Another school had unspent ISEP funds totaling $127,000 at year end and lost
the use of those funds.

We recommended that the Assistant Secretary for Indian Affairs establish and implement
adequate procedures and controls to ensure that financial plans are properly prepared, funds
are spent in accordance with the plan, expenditures are monitored throughout the school year,
and plans are properly revised or adjusted when necessary.




March 2001                                                                   Report No. 01-I-235
AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

BIA concurred with or provided alternate solutions to the report’s six recommendations and
agreed to ensure that adequate procedures and controls would be implemented. Based on the
response, the recommendations were considered resolved but not implemented.




March 2001                                  2                           Report No. 01-I-235
schools. The schools also receive separate BIA funding for student transportation and
additional funds from the U.S. Departments of Education and Agriculture.1

Our review covered four schools located in the State of New Mexico that served a total of
1,670 students and received funding totaling $13,656,036 for the 1997/1998 school year as
follows:

                     School                       Location         Students       Funding*
         San Felipe Elementary               San Felipe Pueblo           350     $2,188,552
         Laguna Elementary                   Laguna                      390       2,414,473
         Jones Ranch Community**             Vanderwagon                 250       2,039,475
         Wingate Elementary                  Ft. Wingate                 680       7,013,536
             Total                                                     1,670 $13,656,036


         *Specific fund allocations for each school are in Appendix 2.
         **The entire name is Chi-Ch’il-tah/Jones Ranch Community School.

Our review also covered the Southern Pueblos Agency in Albuquerque, New Mexico, and the
Eastern Navajo Agency in Crownpoint, New Mexico.

Education line officers at BIA’s agency offices are responsible for (1) reviewing the local
financial plan for compliance with prescribed laws and regulations, (2) notifying the local
school board and local school supervisor of any problems with the financial plan, and
(3) assisting in correcting any problems with the plan. The education line officer is also
required to coordinate, monitor, and, as appropriate, certify the validity of management
information system data collected by the schools. The line officer at the Southern Pueblos
Agency is responsible for six BIA-operated schools, including San Felipe Elementary and
Laguna Elementary, and the line officer at the Eastern Navajo Agency is responsible for nine
schools, including Jones Ranch Community and Wingate Elementary.

SCOPE OF AUDIT

Our review was conducted in accordance with the "Government Auditing Standards," issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. To accomplish our audit objective, we reviewed applicable laws, regulations,
and BIA guidance related to the requirements and procedures for financial plan development,
implementation, and appeals; interviewed BIA officials at the schools and the agencies
concerning the procedures related to the financial plan development, implementation, and



1
The schools’ food service programs are funded, in part, by reimbursements from the states under a
U.S. Department of Agriculture-funded program.


March 2001                                         4                               Report No. 01-I-235
appeal processes; and reviewed school expenditures on a test basis to determine whether they
were adequately supported and were incurred in accordance with the financial plan.

BIA’s financial management system accounts for the ISEP funds and student transportation
funds on a school-year basis. These funds, however, are available for obligation for a
15-month period, July 1 through September 30, the end of the following budget fiscal year.
Accordingly, funds available at the end of a school year can be used for school operations of
the first 3 months of the subsequent school year.

BIA’s financial management system accounts for Department of Education funds on a budget
fiscal-year basis rather than a school-year basis. Education funds, however, are available for
a 2-year period from October 1 of the budget fiscal year for which they were appropriated
through September 30 of the subsequent fiscal year. This 2-year period covers portions of
3 school years. Accordingly, to determine the obligations for a specific school year would
require that BIA’s accounting records be reconstructed for portions of multiple fiscal years
and that cost transactions be analyzed in detail to determine whether the transactions were
applicable to the school year. Accordingly, we did not review Department of Education fund
transactions on a school-year basis to determine whether the schools complied with their
financial plans for these funds. However, the cost transactions were included in our review
of school expenditures to determine whether they were adequately supported.

As part of our audit, we evaluated the system of internal controls to the extent that we
considered necessary to accomplish our audit objective. Our review identified internal
control weaknesses that impact the reliability of the data recorded in BIA’s financial
management system. These weaknesses are presented in the Results of Audit section of this
report. Our recommendations, if implemented, should improve the internal controls in this
area.

We also reviewed the Departmental Report on Accountability for fiscal years 1997 and 1998,
which included information required by the Federal Managers’ Financial Integrity Act of
1982, and BIA’s annual assurance statement for management controls for fiscal years 1997 and
1998 and determined that no material weaknesses were reported which directly related to the
objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports on compliance with local financial plans at BIA-operated
schools.




March 2001                                    5                            Report No. 01-I-235
                              RESULTS OF AUDIT
Overall, we found that the four schools we reviewed did not fully comply with the
requirements for preparing and executing local educational financial plans. Specifically, the
plans did not include all funds available to the schools and/or did not contain specific budgets
for individual programs, funds were not always spent in accordance with the approved plans,
and plans were not modified when expenditures differed significantly from the approved
plans. Title XI of the Education Amendments Act of 1978 (Public Law 95-561) requires that
allotted funds be expended by BIA-operated schools in accordance with local financial plans
prepared by the local school supervisor and approved by the local school board. We found,
however, that the four schools and the two agencies reviewed had not established adequate
controls over the preparation and execution of financial plans. As a result, school board
officials did not have the opportunity to review and approve significant deviations from the
approved plans; BIA and school board officials lacked assurance that funds were spent in a
prudent manner; San Felipe Elementary School, as of June 30, 1998, spent $52,287 more than
its total funds available; and Laguna Elementary School, as of September 30, 1998, lost the
opportunity to use funds totaling $127,900 because the funds had expired.

School Financial Plans

Three of the four schools reviewed did not include all available funds in their school year
1997/1998 financial plans, which were submitted to and approved by the local school boards,
as presented in the paragraphs that follow.

    San Felipe Elementary School. San Felipe’s financial plan of $2.1 million did not
include net funds totaling $77,977 that were in the school’s initial allocations. The Bureau
Manual (41 BIAM, Supplement 4, Chapter 4) states that estimated reimbursements are to be
considered budgetary resources available for obligation. However, the plan did not include
estimated reimbursements totaling $95,000 that had been allocated to the school for its food
service program. Also, the amount in the plan for the Title I, II, and IV Programs funded by
the Department of Education exceeded the amounts allocated to the School for these programs
by $17,023. Thus, the available resources in the plan were understated by a net amount of
$77,977 (see Appendix 3). We were unable to determine why the omissions and errors
occurred because, at the time of our review, school officials responsible for the development
of the school year 1997/1998 financial plan were no longer employed by the school and
current school officials could not provide an explanation.

     Laguna Elementary School. Laguna’s financial plan of $2.3 million was understated by
a net amount of $82,945. The plan did not include funds totaling $142,200, consisting of ISEP
funds of $62,200 and estimated reimbursements totaling $80,000 that had been allocated to the
school for its food service program. Also, the amount in the plan for the Title I, II, and IV
Programs funded by the Department of Education exceeded the amount allocated to the School
for these programs by $59,255 (see Appendix 4). At the time of our review, Laguna officials
could not explain why the funds were not included in the financial plan but noted that the
Agency had reviewed and approved the financial plan without making any adjustments to or
comments on the plan.


March 2001                                     6                            Report No. 01-I-235
    Jones Ranch Community School. Jones Ranch’s financial plan of $1.5 million did not
include a budget for funds totaling $547,375, consisting of $225,000 for the School’s Early
Childhood Program and $322,375 for programs funded by the U.S. Department of Education.
In addition, the plan included only a lump-sum amount for ISEP funds ($1,246,600) with no
budgets for the seven individual programs such as basic instruction and bilingual education
(see Appendix 5). Jones Ranch officials responsible for the development of the school year
1997/1998 financial plan said that they were new at that time and did not have knowledge of
the process for preparing the financial plan. Therefore, Jones Ranch and the Agency, on
April 17, 1998, jointly prepared a financial plan 10 1/2 months after the start of the school
year.

School Compliance With Local Financial Plans

The Code of Federal Regulations (25 CFR Ch. 1, Part 39, "Indian School Equalization
Program") requires the responsible fiscal agent to (1) expend funds solely in accordance with
the local financial plan as ratified by the school board and (2) recommend changes in budget
amounts as required for the effective management of resources to carry out the local financial
plan and incorporate such changes in the budget as are ratified by the local school board. In
addition, the Departmental Manual (328 DM 1.5G) requires that each bureau ensure that
designated officials are charged with individual responsibility for any overobligations or any
expenditures in excess of allocations and ensure that obligations or expenditures are not made
in excess of the amount actually available for obligation. We found that San Felipe and
Laguna exceeded their financial plan budgets because the budgets did not include all funds
allocated to the schools and that San Felipe, as of June 30, 1998, also exceeded its funds
available for the 1997/1998 school year. We also found that San Felipe, Laguna, and Wingate
substantially exceeded their financial plan budgets for some programs and/or object classes
while spending significantly less than their budgets for others. (As discussed in the section
"Financial Plans," Jones Ranch did not prepare budgets for individual programs.) In addition,
neither San Felipe nor Laguna amended its financial plan or properly informed the respective
school boards of these deviations from their plans, while Wingate amended its financial plan
in some instances but not in others. We noted, however, that BIA had not established criteria
for determining when a plan should be modified.

    San Felipe Elementary School. We found that, as of June 30, 1998, San Felipe’s
recorded ISEP obligations for the 1997/1998 school year exceeded the financial plan funds
available to the School by $238,764 and the total recorded ISEP and Department of Education
obligations exceeded total funds available to the school by $52,287. In addition, on
October 5, 1998, the Southern Pueblos Agency education line officer notified the school
principal that, as of September 25, 1998, San Felipe’s ISEP funds were overobligated by
$117,000, which the line officer attributed to "overstaffing, transportation costs are
overbudget, and that . . . school held an extended school session when it should not have done
so."

To address the overobligation of funds, the Agency’s education line officer on September 30
and October 2, 1998 inappropriately transferred obligations totaling $113,900. This amount
consisted of $40,400, which was transferred from San Felipe’s ISEP accounts to the ISEP


March 2001                                    7                            Report No. 01-I-235
account of another BIA-operated school (Laguna), and $73,500, which was transferred from
San Felipe’s ISEP and Student Transportation Program accounts to its Department of
Education fund account for the 1998/1999 school year. These transfers, which resulted in a
distortion of the cost data for the operations of both schools, were made without the formal
approval of the school boards of either school. According to the education line officer, these
transfers would reduce the amount of funds available to the school for the 1998/1999 school
year. After the transfers, San Felipe’s recorded ISEP, Student Transportation, and Food
Reimbursement Program obligations at September 30, 1998 exceeded the allotted funds by
$1,253 (see Appendix 6).

We also found that San Felipe had obligated about $23,300 in nonbudgeted cost categories,
such as contracts - other, grants, printing, and equipment, which contributed to the cost
overrun; had spent about $205,000 more than the budgeted amounts in categories such as
salaries, student transportation, and contracts - special education; and had spent less than the
budgeted amounts in other cost categories. San Felipe, however, did not revise its financial
plan or inform the school board of these changes.

     Laguna Elementary School. Although Laguna spent about $127,900 less than the total
amount available for the school year, its recorded ISEP and Student Transportation obligations
at September 30, 1998 exceeded the amount in its approved financial plan by $73,080 because
the plan did not include all available resources (see Appendix 7). Also, Laguna did not adjust
its financial plan when recorded obligations exceeded budgeted cost categories or when
expenditures were incurred in nonbudgeted cost categories. For example, the School
exceeded its $298,298 budget for program management by $67,084 and its $839,004 budget
for basic instruction by $72,371, spent only $55,430 of its $100,099 budget for the gifted and
talented and only $13,557 of its $28,593 budget for the bilingual education programs, and
exceeded its $46,000 supplies budget by $36,000 and its $7,000 communications budget by
$5,000. Also, obligations of $6,500 were recorded for grants, although there was no budget
established for this category.

As a result of Laguna’s underspending its ISEP budget, the Southern Pueblos Agency used
available funds totaling $40,400 to cover a portion of the excess obligations at San Felipe.
However, even after the Agency transferred excess obligations totaling $40,400 from San
Felipe to Laguna, as of September 30, 1998, Laguna still had ISEP funds of approximately
$127,900 (see Appendix 7) that could have been used to provide educational services and
benefits to Laguna students for school year 1997/1998 if Laguna and the Agency had
adequately monitored the School’s budgets and obligations during the school year.

     Wingate Elementary School. Overall, we found that recorded obligations for the ISEP,
Early Childhood, and Student Transportation funds exceeded the approved financial plan by
$41,243. However, recorded obligations were actually $6,964 less than the amount available
to the school because actual Department of Agriculture reimbursements exceeded the amount
in the plan by $48,207.

We also found that recorded obligations sometimes differed from the approved plan budgets
by significant amounts (see Appendix 8). For example, Wingate exceeded its $497,621 budget



March 2001                                     8                            Report No. 01-I-235
for exceptional child education by $62,291 and its $51,600 budget for Student Transportation
by $21,894. Although obligations compared with program budgets ranged from 75 percent for
school board training to 142 percent for student transportation, Wingate did not always adjust
its financial plan for these deviations or otherwise inform the school board.

Wingate amended its plan twice for the purchase of equipment, which decreased the supplies
and materials budget and increased the equipment budget by a total of $99,200. It did not,
however, comply with two requests from the Eastern Navajo Agency to further amend the plan.
In one instance, although the Agency notified Wingate that the school board training budget of
$20,000 could not, by law, exceed $15,000, Wingate did not amend the plan or record
obligations for the additional $5,000. In the second instance, Wingate purchased a portable
building totaling $35,800 that was not included in the approved financial plan.

    Jones Ranch Community School. Overall, we found that recorded obligations for the
ISEP, Early Childhood, and Student Transportation funds exceeded the approved financial
plan by $226,094 but exceeded the funds available by only $1,094 because available Early
Childhood Program funds of $225,000 were not included in the plan. As discussed in the
section "Financial Plans," Jones Ranch did not establish individual program budgets for the
majority of its available funds (see Appendix 9). Therefore, we did not compare recorded
obligations with the approved budgets.

School Financial Management

The schools and agencies reviewed had not established sufficient management controls over
the expenditure of funds to ensure that obligations were incurred in accordance with the
approved local financial plans. The Bureau Manual (41 BIAM, Supplement 4, Chapter 4)
states in part that each official receiving funds is to ensure that adequate procedures are in
place for executing obligation and expenditure transactions. We found, however, that none of
the schools periodically reconciled school obligations and expenditures as recorded in BIA’s
Federal Financial System with their approved financial plan to ensure that expenditures were
in accordance with the plan. Also, three of the schools (San Felipe, Laguna, and Jones Ranch)
did not have access to BIA’s Federal Financial System, and the staff had not received System
training.

Additionally, we found that Southern Pueblos Agency officials had not performed on-site
monitoring of school financial operations at San Felipe or Laguna during the 1997/1998 school
year.

School Management of Undelivered Orders

The Bureau of Indian Affairs Manual (41 BIAM, Supplement 4, Chapter 9, "Year-End Closing
Procedures") states in part that completed contracts are to be closed as soon as practicable
to ensure that all contract savings are identified and realized. We found, however, that the
schools did not periodically review their obligation transactions to ensure the validity of the
recorded obligation amounts. Our tests of the recorded undelivered orders for school years
1996/1997 and 1997/1998 identified obligations that were no longer valid relating to food


March 2001                                    9                             Report No. 01-I-235
service contracts that had expired, training and travel that were not performed, and equipment
that was not received. The number of transactions reviewed and the results of our review are
as follows:

                                     Transactions Tested        Invalid Transactions
                  School             Number        Dollars      Number       Dollars
        San Felipe Elementary           19         $68,200         14        $52,400
        Laguna Elementary               25          19,800         16           3,200
        Jones Ranch Community           27          41,100         25         34,100
        Wingate Elementary              10           8,200         9            8,100
             Totals                     81      $137,300           64        $97,800

Because the schools did not timely identify and deobligate invalid obligations, there was no
assurance that funds available for providing benefits and services to the students were used
efficiently.

BIA Financial Management

Each BIA-operated school receives an ISEP funding allocation that is recorded in BIA’s
Federal Financial System as lump-sum amounts. The schools, however, are required to
prepare their financial plans based on individual program budget categories and budget object
class amounts within each allocation. The schools are also required to ensure that school
obligations are incurred in accordance with their approved local financial plans. However,
because the individual program budgets and budget object class amounts are not recorded in
the System, monitoring the individual program budgets and comparing the obligations recorded
in the System must be performed manually by school and agency staff. We believe that BIA
should record, in the Federal Financial System, the individual program budgets and /or budget
object class amounts that support the required financial plan prepared by each school rather
than record the available funds at the allocation level.

In addition, BIA’s financial management system accounts for 2-year Department of Education
funds on an annual budget fiscal-year basis rather than a school-year basis. In the first year,
BIA allocates a portion of the funds to each school, and at the end of the first year, any
overutilization or underutilization of funds is rolled over to the subsequent year. However,
BIA records the second-year allocation of funds in the same System account as the first-year
funds. Accordingly, to determine the obligations for a specific school year, school and agency
officials are required to segregate the obligations incurred for the last 3 months of the first
fiscal year and the first 9 months of the second fiscal year. We believe that BIA, to provide
better accountability over Department of Education funds, should account for the funds on a
school-year basis rather than on an annual budget fiscal-year basis. This would be consistent
with the present method of recording and tracking BIA’s ISEP and transportation funds and
would also provide school and agency officials a more efficient means of identifying funds
available (and their related obligations) to a specific school year.



March 2001                                    10                            Report No. 01-I-235
Recommendations

We recommend that the Assistant Secretary for Indian Affairs:

    1. Establish and implement adequate procedures and controls to ensure that school
financial plans are accurate and contain all funding sources available to the schools.

    2. Establish and implement adequate procedures and controls to ensure that school
obligations are incurred in accordance with the approved financial plans and that the plans are
amended and submitted to the school board for approval when significant variances occur.

   3. Ensure that school budget/cost overruns are not inappropriately transferred (to other
schools).

   4. Establish and implement adequate procedures and controls to ensure that the recorded
undelivered orders are periodically reviewed for validity and that invalid amounts are
deobligated in a timely manner.

   5. Establish and implement procedures and controls to record the individual school
program budgets and/or budget object class amounts in the Federal Financial System.

   6. Establish and implement procedures and controls to record the Department of
Education Funds on a school-year basis.

BIA Response and Office of Inspector General Reply

In the February 5, 2001 response (Appendix 10) to the draft report from the Deputy Assistant
Secretary for Indian Affairs - Management, BIA concurred with Recommendations 1, 2, 3, 4,
and 6 but did not concur with Recommendation 5. For Recommendation 5, BIA proposed
alternative actions that meet the intent of the recommendation. Based on the response, we
consider Recommendations 1, 2, 3, 4, and 5 resolved but not implemented and
Recommendation 6 resolved and implemented. Accordingly, the unimplemented
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation.

BIA stated that it could not concur with Recommendation 5 because its "existing accounting
system will not accommodate the recommended changes." Specifically, BIA stated that the
budget component of the Federal Financial System was not included in BIA’s system
implementation and that obtaining and implementing the component at this time would require
the approval of the Department’s Software Advisory Board. BIA also stated that with the
Department "presently exploring replacement options for the current system when the existing
10 year contract expires, it does not appear cost effective to purchase, implement, and train
staff to use the budget component . . . if it may be replaced in approximately 2 years." BIA
further stated that the actions that it had taken and proposed for Recommendations 1 and 2
would "satisfy the intent of Recommendation 5."



March 2001                                   11                             Report No. 01-I-235
We agree that the actions taken and proposed for Recommendations 1 and 2 will satisfy the
intent of Recommendation 5. Accordingly, Recommendation 5 will be considered
implemented when Recommendations 1 and 2 are implemented.

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 11).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




March 2001                                    12                            Report No. 01-I-235
                                                                 APPENDIX 1




             CLASSIFICATION OF MONETARY AMOUNTS


                                                        Funds To Be Put
                          Finding Area                   To Better Use
    Excess Obligation Transfers for San Felipe School
      ($40,400 + $73,500)                                 $113,900
    Expired ISEP Funds at Laguna                           127,900
    Untimely Deobligations                                   97,800
       Total                                              $339,600




March 2001                               13                  Report No. 01-I-235
                                                                        APPENDIX 2



                             FUNDS ALLOTTED TO
                       SELECTED BIA-OPERATED SCHOOLS
                          FOR SCHOOL YEAR 1997/1998


                                                              Jones
         Program           Laguna     San Felipe   Wingate    Ranch        Total
Indian School
 Equalization Program $1,747,100 $1,592,100 $5,649,900 $1,246,600 $10,235,700
Student Transportation       87,800       46,100     51,600   130,500       316,000
Early Childhood                                     225,000   225,000       450,000
USDA Food Service
  Reimbursement              80,000       95,000    250,000   115,000       540,000
Indian Education Act
 Grant                       41,242       38,901     74,587    29,092       183,822
Exceptional Education        98,362       84,674                            183,036
Goals 2000: Educate
  America Act                   855                  80,000    30,000       110,855
Titles I, II, and IV        359,114     331,777     682,449   263,283     1,636,623
     Total                $2,414,473 $2,188,552 $7,013,536 $2,039,475 $13,656,036




March 2001                                 14                     Report No. 01-I-235
                                                                                      APPENDIX 3



               SAN FELIPE ELEMENTARY SCHOOL
             COMPARISON OF FINANCIAL PLAN WITH
          FUNDS ALLOCATED FOR SCHOOL YEAR 1997/1998


                                                   Local
                                                 Financial          Funds
               Program                             Plan           Allocated*          Difference
 ISEP Program Funding                                              $1,592,100
   Program Management                              $247,010
   Basic Instruction                                 920,536
   Bilingual Education                                97,527
   Exceptional Child Education                       152,779
   Gifted and Talented                                26,069
   Food Service                                      148,179
 ISEP Total                                       1,592,100          1,592,100
   Student Transportation                            46,100             46,100
 ISEP and Student Transportation                  1,638,200          1,638,200
   Food Service Reimbursement                             0             95,000          ($95,000)
 ISEP, Student Transportation, and
   Food Service Reimbursement Net                 1,638,200          1,733,200           (95,000)
 Department of Education Programs
   Indian Education Act Grant                         38,901             38,901
   Exceptional Child Education                        84,674            84,674
   Titles I, II, and IV                              348,800           331,777             17,023
 Department of Education Total                       472,375           455,352             17,023
      Total                                      $2,110,575         $2,188,552          ($77,977)

 *This amount consists of funds allocated to San Felipe Elementary School for school year
 1997/1998 (July 1, 1997 through June 30, 1998) by documents issued during the period June
 through December 1997. The allocated funds do not include Department of Education funds
 totaling $221,100 allocated to San Felipe Elementary School for school year 1998/1999 by
 documents issued during July and August 1998. U.S. Department of Education funds are available
 for the 15-month period from July 1 through September 30 of the following year.




March 2001                                      15                                Report No. 01-I-235
                                                                                     APPENDIX 4



                 LAGUNA ELEMENTARY SCHOOL
             COMPARISON OF FINANCIAL PLAN WITH
          FUNDS ALLOCATED FOR SCHOOL YEAR 1997/1998


                                                   Financial           Funds
              Program                                Plan            Allocated*         Difference
ISEP Program Funding                                                 $1,747,100
   Program Management                                $298,298
   Basic Instruction                                  839,004
   Bilingual Education                                 28,593
   Exceptional Child Education                        266,343
   Gifted and Talented                                100,099
   Food Service                                       149,563
   School Board Training                                3,000
ISEP Total                                         1,684,900           1,747,100         ($62,200)
  Student Transportation                              87,800              87,800                0
ISEP and Student Transportation                    1,772,700           1,834,900          (62,200)
  Food Service Reimbursement                                 0             80,000         (80,000)
ISEP, Student Transportation, and
  Food Service Reimbursement Net                   1,772,700           1,914,900         (142,200)
Department of Education Programs
   Indian Education Act Grant                          37,000              41,242
   Exceptional Child Education                         98,362              98,362
   Goals 2000                                           5,000                855
   Titles I, II, and IV                               418,466            359,114
Department of Education Total                         558,828            499,573           59,255
        Total                                     $2,331,528          $2,414,473         ($82,945)

*This amount consists of funds allocated to Laguna Elementary School for school year 1997/1998
(July 1, 1997 through June 30, 1998) by documents issued during the period June through December
1997. The allocated funds do not include Department of Education funds totaling $257,800 allocated
to Laguna Elementary School for school year 1998/1999 by documents issued during July and August
1998. U.S. Department of Education funds are available for the 15-month period from July 1 through
September 30 of the following year.




March 2001                                      16                               Report No. 01-I-235
                                                                                    APPENDIX 5



             JONES RANCH COMMUNITY SCHOOL
            COMPARISON OF FINANCIAL PLAN WITH
         FUNDS ALLOCATED FOR SCHOOL YEAR 1997/1998


                                                Financial           Funds
                  Program                         Plan            Allocated           Difference
ISEP Program Funding                           $1,246,600          $1,246,600
  Program Management
  Basic Instruction
  Bilingual Education
  Exceptional Child Education
  Gifted and Talented
  Food Service
  School Board Training
ISEP Total                                       1,246,600          1,246,600
  Early Childhood                                        0            225,000         ($225,000)
  Student Transportation                           130,500            130,500
ISEP, Early Childhood, and Student
  Transportation                                 1,377,100          1,602,100              (225,000)
  Food Service Reimbursement                       115,000            115,000
ISEP, Early Childhood, Student
  Transportation, and Food Service
     Reimbursement Net                           1,492,100          1,717,100              (225,000)
Department of Education Programs
  Indian Education Act Grant                                           29,092               (29,092)
  Goals 2000                                                           30,000               (30,000)
  Titles I, II, and IV                                                263,283              (263,283)
Department of Education                                               322,375              (322,375)
        Total                                  $1,492,100          $2,039,475         ($547,375)

*This amount consists of funds allocated to Jones Ranch Community School for school year
1997/1998 (July 1, 1997 through June 30, 1998) by documents issued during the period June through
December 1997. The allocated funds do not include Department of Education funds totaling
$148,200 allocated to Jones Ranch Community for school year 1998/1999 by documents issued
during July and August 1998. U.S. Department of Education funds are available for the 15-month
period from July 1 through September 30 of the following year.




March 2001                                     17                               Report No. 01-I-235
                                                                                         APPENDIX 6



                  SAN FELIPE ELEMENTARY SCHOOL
             COMPARISON OF APPROVED FINANCIAL PLAN
             WITH OBLIGATIONS AS OF SEPTEMBER 30, 1998


                                           Financial
               Program                       Plan         Obligations *    Difference        Percent
                                                                              (Over       (Obligations
                                                                              Plan)         to Plan)
ISEP
  Program Management                        $247,010         $131,458       $115,552           53%
  Basic Instruction                          920,536        1,105,357       (184,821)         120%
  Bilingual Education                          97,527           91,715           5,812         94%
  Exceptional Child Education                152,779          166,000         (13,221)        109%
  Gifted & Talented                            26,069           37,898        (11,829)        145%
  Food Service**                             148,179          183,840         (35,661)        124%
  School Board Training                              0           2,733         (2,733)         N/A
ISEP Total                                 1,592,100        1,719,001       (126,901)
  Student Transportation                       46,100           47,232         (1,132)        102%
ISEP and Student Transportation            1,638,200        1,766,233       (128,033)         108%
  Food Service Reimbursement                         0       (126,780)        126,780
ISEP, Student Transportation,
  and Food Service
  Reimbursement Net                       $1,638,200      $1,639,453          ($1,253)        100%

*Obligation total is net of transfers totaling $113,900, discussed in the section "School Compliance
With Local Financial Plans."

**Obligation total includes expenditures totaling $126,780 that were reimbursed by the Department of
Agriculture.




March 2001                                         18                                Report No. 01-I-235
                                                                                          APPENDIX 7



                   LAGUNA ELEMENTARY SCHOOL
             COMPARISON OF APPROVED FINANCIAL PLAN
             WITH OBLIGATIONS AS OF SEPTEMBER 30, 1998


                                           Financial
               Program                       Plan    Obligations *         Difference        Percent
                                                                              (Over       (Obligations
                                                                              Plan)         to Plan)
ISEP
  Program Management                        $298,298        $365,382        ($67,084)         122%
  Basic Instruction                          839,004         911,375         (72,371)         109%
  Bilingual Education                          28,593          13,557          15,036          47%
  Exceptional Child Education                266,343         246,760           19,583          93%
  Gifted & Talented                          100,099           55,430          44,669          55%
  Food Service**                             149,563         160,810         (11,247)         108%
  School Board Training                         3,000           3,000                         100%
ISEP Total                                 1,684,900       1,756,314         (71,414)
  Student Transportation                       87,800          89,466          (1,666)        102%
ISEP and Student Transportation            1,772,700       1,845,780         (73,080)         104%
  Food Service Reimbursement                                (138,749)        138,749
ISEP, Student Transportation,
  and Food Service                        $1,772,700 $1,707,031                65,669          96%
  Reimbursement Net
Additional ISEP Funds Available
 But Not Included in the Plan
 (see Appendix 4)                                                              62,200
Total ISEP Funds Not Obligated                                              $127,869

*Obligations total is net of transfers totaling $40,400 discussed in the section "School Compliance
With Local Financial Plans."

**Obligations total includes expenditures totaling $138,749 that were reimbursed by the Department of
Agriculture.




March 2001                                         19                                 Report No. 01-I-235
                                                                                       APPENDIX 8



                   WINGATE ELEMENTARY SCHOOL
             COMPARISON OF APPROVED FINANCIAL PLAN
             WITH OBLIGATIONS AS OF SEPTEMBER 30, 1998


                                         Financial
              Program                      Plan        Obligations      Difference        Percent
                                                                           (Over       (Obligations
                                                                           Plan)         to Plan)
ISEP
  Basic Instruction                     $2,595,939     $2,532,027         $63,912           98%
  Bilingual Education                      172,719         176,512          (3,793)        102%
  Exceptional Child Education              497,621         559,911         (62,290)        113%
  Gifted & Talented                        142,215         119,917          22,298          84%
  Residential                            1,865,187       1,939,981         (74,794)        104%
  Food Service*                            606,219         590,259          15,960          97%
  School Board Training                      20,000         15,000           5,000          75%
  ISEP Total                             5,899,900       5,933,607         (33,707)
Early Childhood                            225,000         210,642          14,358          94%
Student Transportation                       51,600         73,494         (21,894)        142%
ISEP, Early Childhood, and
  Student Transportation                 6,176,500       6,217,743         (41,243)        101%
Food Service Reimbursement                (250,000)       (298,207)         48,207
ISEP, Early Childhood, Student
  Transportation, and Food
  Service Reimbursement Net             $5,926,500     $5,919,536           $6,964         100%


*Financial plan amount includes estimated reimbursement of $250,000, while obligation total includes
expenditures totaling $298,207 that were reimbursed by the Department of Agriculture.




March 2001                                       20                                Report No. 01-I-235
                                                                                       APPENDIX 9



                JONES RANCH ELEMENTARY SCHOOL
             COMPARISON OF APPROVED FINANCIAL PLAN
             WITH OBLIGATIONS AS OF SEPTEMBER 30, 1998


                                                    Financial
                   Program                            Plan           Obligations       Difference
                                                                                          (Over
                                                                                          Plan)
ISEP                                                $1,246,600
  Basic Instruction                                                     $874,080
  Exceptional Child Education                                             58,873
  Gifted & Talented                                                            32
  Residential                                                            160,595
  Food Service*                                        115,000           233,404
  School Board Training                                                   15,000
ISEP Total                                            1,361,600        1,341,984           $19,616
Early Childhood                                                          227,900          (227,900)
Student Transportation                                 130,500           148,464           (17,964)
ISEP, Early Childhood, and Student
  Transportation                                      1,492,100        1,718,348          (226,248)
  Food Service Reimbursement                          (115,000)         (115,154)               154
ISEP, Early Childhood, Student
  Transportation, and Food Service
  Reimbursement Net                                 $1,377,100        $1,603,194          (226,094)
Additional Early Childhood Funds
   Available But Not Included in
   Plan (see Appendix 5)                                                                   225,000
Total ISEP Funds Overobligated                                                             ($1,094)

*Financial plan amount includes estimated reimbursement of $115,000, while obligation total includes
expenditures totaling $115,154 that were reimbursed by the Department of Agriculture.




March 2001                                       21                                Report No. 01-I-235
                        APPENDIX 10
                           Page 1 of 3




March 2001   22   Report No. 01-I-235
                        APPENDIX 10
                           Page 2 of 3




March 2001   23   Report No. 01-I-235
                        APPENDIX 10
                           Page 3 of 3




March 2001   24   Report No. 01-I-235
                                                              APPENDIX 11



         STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference                Status             Action Required

     1, 2, 3, 4, and 5   Resolved; not    No further response to the Office
                         implemented.     of Inspector General is required.
                                          The recommendations will be
                                          referred to the Assistant Secretary
                                          for Policy, Management and
                                          Budget for tracking of
                                          implementation.

             6           Implemented.     No further action is required.




March 2001                           25                    Report No. 01-I-235
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                    Internet Complaint Form Address

                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                 Outside the Continental United States
                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
          HOTLINE
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
